TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2012 Statutory Audit of
                  Compliance With Notifying Taxpayers of
                 Their Rights When Requested to Extend the
                             Assessment Statute



                                       September 4, 2012

                              Reference Number: 2012-30-102




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                 HIGHLIGHTS


FISCAL YEAR 2012 STATUTORY AUDIT                     representatives signed Form 872, Consent to
OF COMPLIANCE WITH NOTIFYING                         Extend the Time to Assess Tax, and was
TAXPAYERS OF THEIR RIGHTS WHEN                       notified of taxpayer rights regarding extending
REQUESTED TO EXTEND THE                              the assessment statute of limitations. Although
                                                     notification to the taxpayers’ representatives
ASSESSMENT STATUTE
                                                     appears to meet the intent of the law, the IRS’s
                                                     internal procedures require notification to be
Highlights                                           provided to both the taxpayer and the
                                                     representative.
Final Report issued on                               In addition, TIGTA’s review found instances in
September 4, 2012                                    which there was no documentation to support
                                                     that the IRS complied with IRS procedures
Highlights of Reference Number: 2012-30-102          related to notifying taxpayers’ representatives
to the Internal Revenue Service Deputy               when an authorization for third-party
Commissioner for Services and Enforcement.           representation existed. Our review included
                                                     100 taxpayer audit files that had authorizations
IMPACT ON TAXPAYERS                                  for third-party representation and found that
                                                     three of the taxpayer audit files did not contain
The IRS is required to notify taxpayers of their
                                                     documentation that the taxpayers’
rights when requesting an extension of the
                                                     representatives were provided with the required
statute of limitations for assessing additional
                                                     notifications.
taxes and penalties. Based on the results of our
review, TIGTA believes the IRS is complying          WHAT TIGTA RECOMMENDED
with the intent of the law; however, there were
some instances in which IRS employees did not        TIGTA did not make any recommendations in
document whether taxpayers or their                  this report because the number of errors was
representatives were advised of these rights.        relatively small and recommendations made in
Taxpayers might be adversely affected if the IRS     our previous audit reports are still valid for the
does not follow requirements to notify both the      issues reported. Although we made no
taxpayers and their representatives of the           recommendations in this report, we did provide
taxpayers’ rights related to statute extensions.     IRS officials with an opportunity to review the
                                                     draft report. IRS management did not provide
WHY TIGTA DID THE AUDIT                              any report comments.
TIGTA is required by law to annually determine
whether the IRS complied with Internal Revenue
Code Section 6501(c)(4)(B). This requires the
IRS to notify taxpayers of their rights to decline
to extend the assessment statute of limitations
or to request that any extension be limited to
specific issues or a specific period of time.
WHAT TIGTA FOUND
TIGTA’s review of a statistical sample of
115 closed taxpayer audit files with statute
extensions found that the IRS is compliant with
Internal Revenue Code Section 6501(c)(4)(B).
However, four of the taxpayer audit files did not
contain documentation to indicate whether
taxpayers were directly advised of their rights
before consenting to extend the time to assess
tax. In each of the four instances, the taxpayers’
                                                    DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 4, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                          Michael E. McKenney
                                Acting Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Fiscal Year 2012 Statutory Audit of Compliance
                                With Notifying Taxpayers of Their Rights When Requested to Extend
                                the Assessment Statute (Audit # 201230004)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) was complying with Internal Revenue Code Section 6501(c)(4)(B), which requires that the
 IRS provide notice to taxpayers of their rights to decline to extend the assessment statute of
 limitations or to request that any extension be limited to a specific period of time or specific
 issues. The Treasury Inspector General for Tax Administration is statutorily required to provide
 information annually regarding the IRS’s compliance with this provision.1 The review is part of
 our Fiscal Year 2012 Annual Audit Plan and addresses the major management challenge of
 Taxpayer Protection and Rights.
 We did not make any recommendations in this report because the number of errors was relatively
 small and the recommendations made in our previous audit reports are still valid for the issues
 reported. Although we made no recommendations in this report, we did provide IRS officials
 with an opportunity to review the draft report. IRS management did not provide us with any
 report comments.
 Copies of this report are also being sent to the IRS managers affected by the report.
 Please contact me at (202) 622-6510 if you have questions or Frank Dunleavy, Acting Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (213) 894-4470
 (Ext.128).



 1
     Internal Revenue Code Section 7803(d)(1)(c).
                       Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                          Taxpayers of Their Rights When Requested to Extend the
                                            Assessment Statute




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The Internal Revenue Service Is Compliant With Legal Requirements;
          However, Some Employees Are Not Following Internal Procedures
          to Notify Taxpayers ...................................................................................... Page 5
          Some Audit Files Lacked Documentation to Support That Taxpayers’
          Representatives Were Appropriately Notified of Taxpayers’ Rights As
          Required by Internal Revenue Service Procedures ....................................... Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report. ....................................... Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Outcome Measures............................................................... Page 13
          Appendix V – Error Rate Analysis ............................................................... Page 19
          Appendix VI – Prior Reports on Compliance With Requests to Extend
          the Assessment Statute .................................................................................. Page 21
          Appendix VII – Audit Review Results by Division ..................................... Page 22
         Fiscal Year 2012 Statutory Audit of Compliance With Notifying
            Taxpayers of Their Rights When Requested to Extend the
                              Assessment Statute




                        Abbreviations

BMF               Business Master File
IMF               Individual Master File
I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
RRA 98            Restructuring and Reform Act of 1998
TIGTA             Treasury Inspector General for Tax Administration
                    Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                       Taxpayers of Their Rights When Requested to Extend the
                                         Assessment Statute




                                             Background

The Internal Revenue Service (IRS) is required by the IRS Restructuring and Reform Act of
1998 (RRA 98)1 and the Internal Revenue Code (I.R.C.)2 to advise taxpayers of their rights when
requesting an extension of the statute of limitations for
the assessment of additional taxes and penalties. When
the IRS audits a tax return and determines that there is        The IRS is required to advise
                                                               taxpayers of their rights when
an additional tax liability, the additional tax assessment    requesting an extension of the
must generally be processed within three years from the         statute of limitations for the
date the return was due or from the date on which the         assessment of additional taxes
return was actually filed, whichever is later. This                    and penalties.
three-year assessment statute of limitations normally
cannot be extended without the taxpayer’s written consent.3 To extend the statute, the IRS
generally requests that the taxpayer(s) provide a signed consent form, either Form 872, Consent
to Extend the Time to Assess Tax, or Form SS-10, Consent to Extend the Time to Assess
Employment Taxes.4
These consents extend the assessment statute of limitations to either a specific period of time or
an unlimited, indefinite period. The statute is usually extended for a period of time that both the
IRS and the taxpayer agree is reasonable to complete the examination. The consent can also be
negotiated to apply only to certain audit issues.
In passing the RRA 98, Congress expressed concern that taxpayers had not always been fully
aware of their rights to refuse to extend the statute of limitations or to request that a statute
extension be limited to specific issues or a specific period of time. Some taxpayers might
believe that they are required to agree to an extension upon the request of the IRS. Congress
wanted to ensure that taxpayers were informed of their rights to refuse the proposed statute
extension or to have it limited.




1
  RRA 98 § 3461(b)(2)(B), Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of
2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and
49 U.S.C.).
2
  I.R.C. § 6501(c)(4)(B).
3
  There are some exceptions to the three-year statute of limitations. For example, I.R.C. § 6501(c)(1) extends the
assessment statute indefinitely when false or fraudulent returns are filed.
4
  IRS employees who often request assessment statute extensions are examiners in the various Examination
functions of the business divisions and appeals officers in the Office of Appeals.
                                                                                                             Page 1
                 Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                    Taxpayers of Their Rights When Requested to Extend the
                                      Assessment Statute



A taxpayer might agree to extend the assessment statute of limitations for the following reasons:
      The taxpayer might want to pursue additional audit issues that are in the taxpayer’s favor
       in offsetting a proposed tax assessment or that might allow for a tax refund.
      If the remaining time before the statute expires is too short, the IRS might have to
       prematurely stop the audit process and issue a notice of deficiency that limits the time for
       the normal appeals process before the taxpayer must file a petition with the U.S. Tax
       Court.
A taxpayer might decide to limit or refuse to extend the assessment statute of limitations because
the taxpayer might not want to:
      Provide the IRS more time to consider additional audit issues.
      Allow the IRS the opportunity to further develop audit issues already under consideration
       after the normal statute period has expired.
RRA 98 Section (§) 3461(b)(2)(B) requires the IRS to “. . . notify the taxpayer of the taxpayer’s
right to refuse to extend the period of limitations, or to limit such extension to particular issues or
to a particular period of time, on each occasion when the taxpayer is requested to provide such
consent.” To implement this statutory requirement, the IRS revised its procedures to direct IRS
                                              employees to provide the taxpayer with a Letter 907,
                                              Request to Extend Assessment Statute, or Letter 967,
   The RRA 98 requires taxpayers to be
    informed of their rights to refuse to
                                              Letter Transmitting Consent Extending Period of
   extend the period of limitations or to     Limitation. Included with these Letters should be
   limit the extension to specific issues     the actual consent forms to be signed and
             or a period of time.             Publication 1035, Extending the Tax Assessment
                                              Period.
The consent forms were revised to include a prominent statement informing taxpayers of
their rights regarding assessment statute extensions and to provide information about
Publication 1035. Figure 1 shows that the revised consent forms also include a statement for the
taxpayers’ representatives to sign, confirming they were notified of their rights regarding
assessment statute extensions and the taxpayers were made aware of the same rights.




                                                                                                Page 2
                      Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                         Taxpayers of Their Rights When Requested to Extend the
                                           Assessment Statute



                                   Figure 1: Excerpt From Form 872




Note: The wording in the Form SS-10 is consistent with that shown in Form 872.
Source: IRS Form 872.

IRS procedures require that any notice or other written communication required to be given to a
taxpayer also be given to the taxpayer’s representative (unless restricted by the taxpayer).5 IRS
employees are instructed to document in their audit file activity log whether the taxpayer was
notified of his or her rights each time the IRS requested an assessment statute extension. In
addition, IRS internal procedures require employees to provide copies of any correspondence
with a taxpayer’s representative to the taxpayer.
The Treasury Inspector General for Tax Administration (TIGTA) is required by the RRA 98 to
provide information annually regarding the IRS’s compliance with I.R.C. § 6501(c)(4)(B). This
report presents the results of our thirteenth annual review of the IRS’s compliance with the
statute extension provisions of the law.6 As in the previous 12 reports, we continued to identify
some noncompliance with the required IRS procedures.




5
    Conference and Practice Requirements, Statement of Procedural Rules, 26 C.F.R. § 601.506 (2002).
6
    See Appendix VI for a list of our prior reports.
                                                                                                       Page 3
                Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                   Taxpayers of Their Rights When Requested to Extend the
                                     Assessment Statute



This review was performed at the Office of Appeals Headquarters, Large Business and
International Division Headquarters, Small Business/Self-Employed Division Headquarters,
Tax Exempt and Government Entities Division Headquarters, and Wage and Investment
Division Headquarters in Washington, D.C., during the period October 2011 through April 2012.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 4
                    Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                       Taxpayers of Their Rights When Requested to Extend the
                                         Assessment Statute




                                       Results of Review

The Internal Revenue Service Is Compliant With Legal Requirements;
However, Some Employees Are Not Following Internal Procedures to
Notify Taxpayers
Our review of 115 taxpayer audit files7 with statute extensions showed that the IRS is compliant
with I.R.C. § 6501(c)(4)(B). However, the audit files for four (4.77 percent)8 of the
115 taxpayers in our statistical sample did not contain documentation to indicate whether
taxpayers were directly advised of their rights. Although legal requirements were satisfied when
the taxpayers’ representatives signed Form 872 and were notified of the taxpayers’ rights
regarding extending the assessment statute of limitations, there was no documentation in the
audit files to show that taxpayers were directly informed of their rights. Figure 2 shows the
trends in the error rate from Fiscal Year 2007 to Fiscal Year 2012. Appendix V provides
additional details regarding the significance of the error rates.
                        Figure 2: Error Rate – No Documentation on the
                                   Taxpayer Being Informed




        Source: Prior TIGTA audit reports (see Appendix VI).




7
 Consisting of 58 individual and 57 business taxpayers.
8
 The error rate of 4.77 percent is based on the weighted average error rate that has been rounded to the nearest
percent, with a 95 percent confidence interval between 0.24 percent (lower limit) and 9.3 percent (upper limit).
See Appendix IV for the calculation.
                                                                                                             Page 5
                     Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                        Taxpayers of Their Rights When Requested to Extend the
                                          Assessment Statute



IRS procedures require employees to provide copies of any correspondence with the
representative to the taxpayer. Specifically, the Internal Revenue Manual9 states that
“. . . notification must be made to the taxpayer…and the taxpayer’s representative. . .”
The notification process is also explained in Publication 947, Practice Before the IRS and Power
of Attorney, in which the IRS informs the taxpayer:
           If you have a recognized representative, you and the representative will receive
           notices and other correspondence from the IRS. . . the IRS will send your
           representative(s) a duplicate of all computer-generated correspondence that is
           sent to you. . . . The IRS employee handling the case is responsible for ensuring
           that the original and any requested copies of each manually-generated [sic]
           correspondence are sent to you and your representative(s) in accordance with
           your authorization.
Although notification to the taxpayer’s representative appears to meet the intent of the law, the
failure to notify both the taxpayer and the representative violates the IRS’s internal procedures.
IRS procedures and publications are clear that both the taxpayer and the taxpayer’s
representative be provided notices, including notification of the taxpayer’s rights.
We determined whether employees had advised taxpayers of their rights and considered the
notification sufficient if any of the required documentation appeared to have been given to the
taxpayers, or a log entry to that effect was found in the related taxpayer audit files. The fact that
we could not identify the required documentation in the audit file does not mean the taxpayers
were not informed of their rights. However, based upon the information available to us, we
could not determine if the taxpayers were informed directly by the IRS.
Taxpayers could be negatively affected if the IRS does not comply with internal procedures
requiring that taxpayers be directly notified of their rights related to extensions on the assessment
statute of limitations. Based on our sample results, from a universe of 9,175 taxpayer audit files
with statute extensions, we projected there were 438 taxpayers10 for which audit files did not
contain documentation to show the taxpayers were directly advised of their rights when
assessment statutes were extended. We are 95 percent confident that the range of procedural
errors is between 22 and 853 taxpayers. However, because the number of errors was relatively
small and consistent with prior years, we are not making any recommendations for this issue.




9
    Internal Revenue Manual 25.6.22 (Aug. 26, 2011).
10
     See Appendix IV for details.
                                                                                               Page 6
                    Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                       Taxpayers of Their Rights When Requested to Extend the
                                         Assessment Statute



Some Audit Files Lacked Documentation to Support That Taxpayers’
Representatives Were Appropriately Notified of Taxpayers’ Rights As
Required by Internal Revenue Service Procedures
IRS procedures require that any notice or other written communication required to be given to a
taxpayer should also be given to the taxpayer’s representative (unless restricted by the
taxpayer).11 IRS employees are instructed to document in their audit file activity log whether the
taxpayer was notified of his or her rights each time the IRS requested an assessment statute
extension. This requirement applies to all computer-generated or manually generated notices or
other written communications.
While IRS employees documented that the taxpayers were informed of their rights and the
taxpayers signed the extensions, we found instances where there was no documentation to
support that the IRS complied with IRS procedures related to notifying taxpayers’
representatives of the taxpayers’ rights when an authorization for third-party representation
existed. Our review of a statistical sample of 115 taxpayer audit files included 100 taxpayers12
who had authorizations for third parties to represent the taxpayers before the IRS. Of these
100 taxpayers, three (3.43 percent)13 of the taxpayer audit files did not contain any
documentation supporting that the taxpayers’ representatives were provided with the required
notifications. Based on our sample results, from a universe of 9,175 taxpayer audit files with
statute extensions, we projected there were 268 taxpayers whose related audit files14 did not
contain documentation that the taxpayers’ representatives were provided with the required
notifications. We are 95 percent confident that the range is between three15 and 583 taxpayers.
For these taxpayers, IRS management officials informed us that some employees may have
overlooked the fact that the required information was not documented in the taxpayer audit files
or the documents were separated from the taxpayer audit files. Figure 3 shows the trends in the
error rate from Fiscal Year 2007 to Fiscal Year 2012. The error rates were calculated as a
percentage of the number of taxpayers sampled who had authorized representatives for the


11
   Conference and Practice Requirements, Statement of Procedural Rules, 26 C.F.R. § 601.506 (2002).
12
   Consisting of 49 individual and 51 business taxpayers.
13
   The error rate of 3.43 percent is based on the weighted average error rate that has been rounded to the nearest
percent, with a 95 percent confidence interval between 0.03 percent (lower limit) and 7.48 percent (upper limit). We
have no reason to believe that the subsample of taxpayer audit files with taxpayer representatives in each stratum is
biased. If the subsample were biased, then the error rate projection could be substantially higher. See Appendix IV
for the calculation and Appendix V for additional details regarding the significance of the error rates.
14
   Although we were able to determine that there were 100 taxpayer representatives in our sample of 115 taxpayer
audit files, we were unable to determine the true number of taxpayer representatives in our universe of 9,175
taxpayer audit files with statute extensions. Therefore, this projection is based on the 115 taxpayer audit files
reviewed, which is further explained in Appendix IV.
15
   Under the normal approximation, we obtained a lower limit of a negative number for the range. We know there
are at least three errors and have used that number as our lower limit.
                                                                                                            Page 7
                 Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                    Taxpayers of Their Rights When Requested to Extend the
                                      Assessment Statute



identified year. Appendix V provides additional details regarding the significance of the error
rates.
                     Figure 3: Error Rate – No Documentation on the
                              Representative Being Informed




       Source: Prior TIGTA audit reports (see Appendix VI).

Without the required documentation, we could not determine if the IRS properly notified the
taxpayers’ representatives in these three taxpayer audit files. Taxpayers might be adversely
affected if the IRS does not follow requirements to notify both the taxpayers and their
representatives of the taxpayers’ rights related to statute extensions. Historically, the Federal
Government expressed concern that in some cases taxpayers were not fully aware of their right
to refuse to extend the statute of limitations and felt that they had no choice but to agree to the
extension, after it had been signed. However, because the number of errors was relatively small
and recommendations made in our previous audit reports are still valid for the issues reported,
we are not making any recommendations.




                                                                                             Page 8
                    Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                       Taxpayers of Their Rights When Requested to Extend the
                                         Assessment Statute



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall audit objective was to determine whether the IRS was complying with
I.R.C. § 6501(c)(4)(B), which requires that the IRS provide notice to taxpayers of their rights to
decline to extend the assessment statute of limitations or request that any extension be limited to
a specific period of time or specific issues. To accomplish this objective, we:
I.       Determined whether taxpayers and their designated representatives are being advised of
         their rights when the IRS requests to extend the assessment statute of limitations.
         A. Reviewed the Internal Revenue Manual,1 IRS memoranda, IRS Counsel Opinions,
            and Appeals guidelines to determine if there were any changes to existing policies
            and procedures for processing requests to extend the assessment statute of limitations
            since our last audit.
         B. Identified a universe of 6,344 Individual Master File (IMF)2 and 2,831 Business
            Master File (BMF)3 taxpayer audit files from the combined IMF and BMF with
            closed examinations for which the assessment statute was extended. The period for
            the IMF and BMF taxpayer audit files was from January 1 through June 30, 2011.
             1. Validated the IMF and the BMF data by examining a random sample of
                30 (15 from each Master File extract) taxpayers. This random sample was used
                for data validation and not for projecting or reporting results. The validation test
                results demonstrated that the data were reliable and could be used to meet the
                objective of this audit.
             2. Developed a statistical sampling plan using a 95 percent confidence level, an
                expected error rate of 8 percent, and a precision of ±7 percent, which resulted in a
                minimum sample size of 115 taxpayer audit files. The 115 audit files consisted of
                58 IMF and 57 BMF taxpayers. A statistical sample was taken because we
                wanted to estimate the number of taxpayers in the universe for which taxpayer
                rights were potentially affected.




1
  Internal Revenue Manual 25.6.22 (Aug. 26, 2011).
2
  The IRS database that maintains transactions or records of individual tax accounts.
3
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
                                                                                                             Page 9
                   Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                      Taxpayers of Their Rights When Requested to Extend the
                                        Assessment Statute


             3. Used RAT-STATS4 to select 300 (150 IMF and 150 BMF) taxpayer audit files
                from the universe identified in Step I.B. We selected more than our sample of
                115 taxpayer audit files in the event that some of the files received were
                incomplete (e.g., did not include all related tax years, audit file history notes, etc.),
                which would prevent us from performing our review of such files.
             4. Screened the taxpayer audit files in Step I.B.3. until we obtained our valid sample
                of 115 taxpayer audit files. Specifically, we screened 227 of the taxpayer audit
                files received. Of those 227 taxpayer audit files screened, we identified 115 files
                that were complete taxpayer audit files.
        C. Reviewed the 115 selected taxpayer audit files and related audit files for the
           necessary documentation to verify whether taxpayers and their representatives, if
           applicable, were properly advised of their rights regarding assessment statute
           extensions. We then discussed exceptions with the various business unit coordinators
           for agreement to the facts.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the policies, procedures, and practices
used by the Office of Appeals, Large Business and International Division, Small
Business/Self-Employed Division, Tax Exempt and Government Entities Division, and Wage
and Investment Division as they relate to notifying taxpayers of their rights to decline to extend
the assessment statute of limitations or request that any extension be limited to specific issues or
a specific period of time. We evaluated these controls by reviewing applicable manuals and
documentation, interviewing management from these functions, and reviewing a statistical
sample of 58 individual and 57 business taxpayer audit files, for a total sample of 115 taxpayer
audit files.




4
 RAT-STATS is a statistical software package. The software was initially developed by the Regional Advanced
Techniques Staff (RATS) in San Francisco, of the Office of Inspector General for the Department of Health and
Human Services.
                                                                                                       Page 10
               Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                  Taxpayers of Their Rights When Requested to Extend the
                                    Assessment Statute



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Michelle Philpott, Acting Director
Alberto Garza, Acting Audit Manager
Donna Saranchak, Lead Auditor
Mike Della Ripa, Senior Auditor
Ashley Weaver, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                    Page 11
               Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                  Taxpayers of Their Rights When Requested to Extend the
                                    Assessment Statute



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief Counsel CC
Deputy Commissioner, Large Business and International Division SE:LB
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Communications, Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CSO
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Field Specialists, Large Business and International Division SE:LB:FS
Director, Communication and Liaison, Large Business and International Division SE:LB:M:CL
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       Chief, Appeals AP
       Chief Counsel CC




                                                                                  Page 12
                   Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                      Taxpayers of Their Rights When Requested to Extend the
                                        Assessment Statute



                                                                                           Appendix IV

                                   Outcome Measures

This appendix presents detailed information on the measurable impact that current findings will
have on tax administration. These benefits will be incorporated into our Semiannual Report to
Congress.

Type and Value of Outcome Measure:
       Taxpayer Rights and Entitlements – Potential; 438 taxpayers whose related audit files did
        not contain documentation to show that the taxpayers were directly advised of their rights
        by the IRS when assessment statutes were extended in accordance with IRS publications
        and procedures (see page 5).

Methodology Used to Measure the Reported Benefit:
To determine the number of taxpayers for which there was no documentation to support that the
taxpayers were directly advised of their rights, we identified 6,344 taxpayer audit files from the
universe of IMF and 2,831 taxpayer audit files from the universe of BMF taxpayer audit files in
which the assessment statute was extended and the examination closed as shown in Figure 1.
The time period was January 1 through June 30, 2011. For both universes, we used a
95 percent confidence level, an expected error rate of 8 percent, and a ±7 percent precision to
determine our sample size of 115 taxpayer audit files (58 individual and 57 business taxpayers).
                               Figure 1: Statistical Sampling Data

                                Strata                                    Universe Size       Sample Size

 IMF Taxpayer Audit Files                                                     6,344                58
 BMF Taxpayer Audit Files                                                     2,831                57
                                                               Totals         9,175                115
Source: TIGTA analysis of an extract from the IMF and BMF to identify the universe of closed IMF and BMF
records having assessment statutes of limitations extended by taxpayer consent.

       First, we calculated the weighted average error rate for our sample, which was required
        due to our stratified sampling methodology. Prior to determining our overall weighted
        average error rate for our sample, we had to determine the weight of each stratum in our
        universe. To do so, we divided the number of taxpayer audit files in each stratum by the
        total taxpayer audit files in the universe, as shown in Figure 2.

                                                                                                     Page 13
                      Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                         Taxpayers of Their Rights When Requested to Extend the
                                           Assessment Statute



                                    Figure 2: Weight of Strata in Universe

                                                                              Weight of Each Stratum in
                                                                                       Universe
                                                             Universe Size     (Stratum Universe Size/
                               Strata                        per Stratum         Total Universe Size)1

    IMF Taxpayer Audit Files                                         6,344                         69.1%
    BMF Taxpayer Audit Files                                         2,831                         30.9%
                                                    Totals           9,175                       100.00%
Source: TIGTA sampling plan and methodology.

          Next, we calculated the error rate per stratum, as shown in Figure 3, by dividing the
           number of errors in each stratum by the sample size for each stratum.
                                        Figure 3: Error Rate per Stratum

                                                                  Number
                                                                  of Errors
                                                                     per      Sample Size   Error Rate
                                 Strata                           Stratum     per Stratum   per Stratum

    IMF Taxpayer Audit Files                                          4            58          6.90%
    BMF Taxpayer Audit Files                                          0            57          0.00%
                                                        Totals        4           115
Source: TIGTA sampling plan and taxpayer audit file analysis.

          We then calculated the weighted average error rate for our sample, as shown in Figure 4,
           by multiplying the error rate for each stratum by the percentage of each respective
           stratum represented in our universe (i.e., “Weight of Each Stratum in Universe”) and
           summing the results.




1
    Percentages are rounded.
                                                                                                Page 14
                    Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                       Taxpayers of Their Rights When Requested to Extend the
                                         Assessment Statute



        Figure 4: Weighted Average Error Rate Calculation for Stratified Sample

                                                                  Error Rate        Weight in          Weight of
                                                                     per           Universe per      Error Rate per
                            Strata                                 Stratum          Stratum             Stratum

 IMF Taxpayer Audit Files                                            6.90%             69.1%               4.77%
 BMF Taxpayer Audit Files                                            0.00%             30.9%               0.00%
                                                       Weighted average error rate for sample             4.77%
Source: TIGTA analysis of: 1) an extract from the IMF and BMF to identify the universe of closed IMF and BMF
records having assessment statutes of limitations extended by taxpayer consent and 2) results of audit file testing.

        Based on our sample error rate of 4.77 percent and a confidence level of 95 percent
         (±4.53 percent precision), we projected the total number of taxpayers whose audit files
         did not contain documentation that the taxpayers were directly advised of their rights to
         be 438 taxpayers [9,175 x 4.77 percent], with a range of 22 to 853.

Type and Value of Outcome Measure:
        Taxpayer Rights and Entitlements – Potential; 268 taxpayers whose related audit files did
         not contain documentation that the taxpayers’ representatives were provided with the
         required notifications (see page 7).

Methodology Used to Measure the Reported Benefit:
To determine the number of taxpayers for which there was no documentation to support that the
taxpayers were directly advised of their rights, we identified 6,344 taxpayer audit files from the
universe of IMF and 2,831 taxpayer audit files from the universe of BMF taxpayer audit files in
which the assessment statute was extended and the examination closed, as shown in Figure 5.
The time period was January 1 through June 30, 2011. For both universes, we used a
95 percent confidence level, an expected error rate of 8 percent, and a ±7 percent precision to
determine our sample size of 115 taxpayer audit files (58 individual and 57 business taxpayers).




                                                                                                            Page 15
                      Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                         Taxpayers of Their Rights When Requested to Extend the
                                           Assessment Statute



                                    Figure 5: Statistical Sampling Data

                                    Strata                                Universe Size       Sample Size

    IMF Taxpayer Audit Files                                                  6,344                58
    BMF Taxpayer Audit Files                                                  2,831                57
                                                               Totals         9,175                115
Source: TIGTA analysis of an extract from the IMF and BMF to identify the universe of closed IMF and BMF
records having assessment statutes of limitations extended by taxpayer consent.

          First, we calculated the weighted average error rate for our sample, which was required
           due to our stratified sampling methodology. Prior to determining our overall weighted
           average error rate for our sample, we first had to determine the weight of each stratum in
           our universe. To do so, we divided the number of taxpayer audit files in each stratum by
           the total taxpayer audit files in the universe, as shown in Figure 6.
                                    Figure 6: Weight of Strata in Universe

                                                                                 Weight of Stratum in
                                                                              Universe (Stratum Universe
                                                           Universe Size                 Size/
                               Strata                      per Stratum           Total Universe Size)2

    IMF Taxpayer Audit Files                                         6,344                                 69.1%
    BMF Taxpayer Audit Files                                         2,831                                 30.9%
                                                  Totals             9,175                              100.00%
Source: TIGTA sampling plan and methodology.

          Next, we used the same sample of 115 taxpayers and identified 100 taxpayer audit files
           that contained an authorization for a third party to represent the taxpayer before the IRS.
           As noted in Figure 7, we found that three of the 100 taxpayer audit files did not contain
           documentation that the taxpayers’ representatives were provided with the required
           notifications.




2
    Percentages are rounded.
                                                                                                     Page 16
                    Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                       Taxpayers of Their Rights When Requested to Extend the
                                         Assessment Statute



                                        Figure 7: Error Rate per Stratum

                                                                      Number
                                                                      of Errors
                                                                         per         Sample Size        Error Rate
                              Strata                                  Stratum        per Stratum        per Stratum

 IMF Taxpayer Audit Files                                                  2               49               4.08%
 BMF Taxpayer Audit Files                                                  1               51               1.96%
                                                           Totals          3               100
Source: TIGTA sampling plan and taxpayer audit file analysis.

        Next, we calculated the error rate per stratum, as shown in Figure 8, by dividing the
         number of errors in each stratum by the sample size with a third party authorization for
         each stratum and summing the results. Our sample error rate is calculated to be 3.43
         percent with a 95 percent confidence interval between 0.03 percent (lower limit) and 7.48
         percent (upper limit).
        Figure 8: Weighted Average Error Rate Calculation for Stratified Sample

                                                                  Error Rate        Weight of
                                                                     per            Stratum in         Weight of
                            Strata                                 Stratum           Universe          Error Rate

 IMF Taxpayer Audit Files                                            4.08%             69.1%               2.82%
 BMF Taxpayer Audit Files                                            1.96%             30.9%               0.61%
                                                       Weighted average error rate for sample             3.43%
Source: TIGTA analysis of: 1) an extract from the IMF and BMF to identify the universe of closed IMF and BMF
records having assessment statutes of limitations extended by taxpayer consent and 2) results of audit file testing.

        Although we were able to determine that there were 100 taxpayer representatives in our
         sample of 115 taxpayer audit files, we were unable to determine the true number of
         taxpayer representatives in our universe of 9,175 taxpayer audit files with statute
         extensions. Therefore, to project our results to the universe, we had to fully account for
         the 115 taxpayer audit files reviewed. Specifically, we calculated the error rate per
         stratum, as shown in Figure 9, by dividing the number of errors in each stratum by the
         sample size for each stratum.




                                                                                                            Page 17
                     Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                        Taxpayers of Their Rights When Requested to Extend the
                                          Assessment Statute



                        Figure 9: Error Rate per Overall Sample Stratum

                                                                      Number
                                                                      of Errors
                                                                         per         Sample Size        Error Rate
                                Strata                                Stratum        per Stratum        per Stratum

    IMF Taxpayer Audit Files                                               2               58               3.45%
    BMF Taxpayer Audit Files                                               1               57               1.75%
                                                           Totals          3               115
Source: TIGTA sampling plan and taxpayer audit file analysis.

         We then calculated the weighted average error rate for our sample, as shown in
          Figure 10, by multiplying the error rate for each stratum by the percentage of each
          respective stratum represented in our universe (i.e., “Weight of Each Stratum in
          Universe”) and summing the results.
Figure 10: Weighted Average Error Rate Calculation for Overall Stratified Sample

                                                                  Error Rate        Weight of
                                                                     per            Stratum in         Weight of
                               Strata                              Stratum           Universe          Error Rate

    IMF Taxpayer Audit Files                                         3.45%             69.1%               2.39%
    BMF Taxpayer Audit Files                                         1.75%             30.9%               0.54%
                                                       Weighted average error rate for sample             2.93%
Source: TIGTA analysis of: 1) an extract from the IMF and BMF to identify the universe of closed IMF and BMF
records having assessment statutes of limitations extended by taxpayer consent and 2) results of audit file testing.

         Based on our sample error rate of 2.93 percent and a 95 percent confidence interval
          between 0.03 percent (lower limit) and 6.35 percent (upper limit), we projected the total
          number of taxpayers whose audit files did not contain documentation that the taxpayers
          were directly advised of their rights to be 268 taxpayers [9,175 x 2.93 percent], with a
          range of three3 to 583 taxpayer audit files.
We shared the methodology for our outcome measures with a contracted statistical expert who
confirmed the accuracy of our methodology and projections.



3
 Under the normal approximation, we obtained a lower limit of a negative number for the range. We know there is
at least three errors and have used that number as our lower limit.
                                                                                                            Page 18
                    Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                       Taxpayers of Their Rights When Requested to Extend the
                                         Assessment Statute



                                                                                                 Appendix V


                                     Error Rate Analysis

This appendix presents information on the sample error rates identified during this review, as
well as those identified in prior TIGTA reviews.1 As shown in Figures 1 and 2, the sample error
rates identified in Fiscal Years 2007 through 2012 include a confidence band and corresponding
confidence intervals.2 We are 95 percent confident that the true error rates fall within the lower
and upper limit3 error rates.
As noted in this report, we found that the taxpayer audit files for four (4.77 percent) of the 115
taxpayers in our statistical sample did not contain documentation to indicate whether taxpayers
were directly advised of their rights. Our statistical sample was based on a 95 percent
confidence level and, as a result, we calculated the lower and upper limit error rates to show the
confidence interval boundaries related to this fiscal year’s error rate, as well as the error rates for
the past five fiscal years. For example, as shown in Figure 1, the error rate for our sample of
Fiscal Year 2012 taxpayer audit files was 4.77 percent, and we are 95 percent confident that the
true error rate falls between the 0.24 percent (lower limit) and 9.3 percent (upper limit).
                        Figure 1: Error Rate – No Documentation on the
                                   Taxpayer Being Informed




Source: Prior TIGTA audit reports.

1
  See Appendix VI for a list of our prior reports.
2
  A confidence band represents the uncertainty in an estimate over several periods of time. The confidence interval
represents the uncertainty in an estimate at a single time period.
3
  Confidence limits are the lower and upper boundaries of a confidence interval; that is, the values that define
the range of a confidence interval. The upper and lower boundaries of a 95 percent confidence interval are the
95 percent confidence limits.
                                                                                                           Page 19
                   Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                      Taxpayers of Their Rights When Requested to Extend the
                                        Assessment Statute



In addition, our review of the stratified random sample of 115 taxpayer audit files included a
stratified subsample of 100 taxpayers who had authorizations for third parties to represent the
taxpayers before the IRS. We have no reason to believe that this subsample of taxpayer audit
files with taxpayer representatives in each stratum is biased. We estimate that 3.43 percent of the
taxpayer audit files did not contain any documentation supporting that the taxpayers’
representatives were provided with the required notifications. We calculated the lower and upper
limit error rates to show the confidence interval boundaries related to this fiscal year’s error rate,
as well as the error rates for the past five fiscal years. For example, as shown in Figure 2, the
error rate for our sample of Fiscal Year 2012 taxpayer audit files was 3.43 percent, and we are
95 percent confident that the true error rate falls between the 0.03 percent (lower limit) and
7.48 percent (upper limit). If the stratified subsample of taxpayer audit files with taxpayer
representatives were biased, then the error rate projection for Fiscal Year 2012 could be
substantially higher.
                      Figure 2: Error Rate – No Documentation on the
                               Representative Being Informed




Source: Prior TIGTA audit reports.




                                                                                             Page 20
                Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                   Taxpayers of Their Rights When Requested to Extend the
                                     Assessment Statute



                                                                             Appendix VI

      Prior Reports on Compliance With Requests to
             Extend the Assessment Statute

The TIGTA has previously performed 12 mandatory audits in this subject area. These audits
were:
TIGTA, Ref. No. 2011-30-055, Fiscal Year 2011 Statutory Audit of Compliance With Notifying
Taxpayers of Their Rights When Requested to Extend the Assessment Statute (Jun. 2011).
TIGTA, Ref. No. 2010-30-103, Fiscal Year 2010 Statutory Audit of Compliance With Notifying
Taxpayers of Their Rights When Requested to Extend the Assessment Statute (Aug. 2010).
TIGTA, Ref. No. 2009-30-113, Fiscal Year 2009 Statutory Audit of Compliance With Notifying
Taxpayers of Their Rights When Requested to Extend the Assessment Statute (Aug. 2009).
TIGTA, Ref. No. 2008-40-127, Fiscal Year 2008 Statutory Audit of Compliance With Notifying
Taxpayers of Their Rights When Requested to Extend the Assessment Statute (Jun. 2008).
TIGTA, Ref. No. 2007-40-167, Fiscal Year 2007 Statutory Audit of Compliance With Notifying
Taxpayers of Their Rights When Requested to Extend the Assessment Statute (Aug. 2007).
TIGTA, Ref. No. 2006-40-163, Fiscal Year 2006 Statutory Audit of Compliance With Notifying
Taxpayers of Their Rights When Requested to Extend the Assessment Statute (Sept. 2006).
TIGTA, Ref. No. 2005-40-112, Fiscal Year 2005 Statutory Audit of Compliance With Notifying
Taxpayers of Their Rights When Requested to Extend the Assessment Statute (Jul. 2005).
TIGTA, Ref. No. 2004-40-108, Fiscal Year 2004 Statutory Audit of Compliance With Notifying
Taxpayers of Their Rights When Requested to Extend the Assessment Statute (Jun. 2004).
TIGTA, Ref. No. 2003-40-193, Fiscal Year 2003 Statutory Audit of Compliance With Notifying
Taxpayers of Their Rights When Requested to Extend the Assessment Statute (Sept. 2003).
TIGTA, Ref. No. 2002-40-175, Improved Documentation Is Needed to Ensure Taxpayers Are
Informed of Their Rights When Requested to Extend the Assessment Statute (Sept. 2002).
TIGTA, Ref. No. 2001-10-157, Most Taxpayers Are Advised of Their Rights Before Signing an
Agreement to Extend the Assessment Statute of Limitations (Sept. 2001).
TIGTA, Ref. No. 2000-10-142, Information Provided to Taxpayers When Requesting Extensions
of the Assessment Statute of Limitations Can Be Improved (Sept. 2000).



                                                                                     Page 21
                   Fiscal Year 2012 Statutory Audit of Compliance With Notifying
                      Taxpayers of Their Rights When Requested to Extend the
                                        Assessment Statute



                                                                                          Appendix VII

                     Audit Review Results by Division

      Compliance With                                       Division1
    Requirement to Notify          Appeals        LB&I        SB/SE       TE/GE          W&I         Totals
     Taxpayers of Their
           Rights                  IMF/BMF      IMF/BMF     IMF/BMF      IMF/BMF       IMF/BMF      IMF/BMF
Number of Taxpayer Audit Files
That Did Not Contain
Documentation That Taxpayers
                                      0/0          0/0          4/0         0/0           0/0          4/0
Were Directly Informed of Their
Rights as Required by Internal
Procedures

Number of Taxpayer Audit Files
                                      5/9         1/18         48/27        0/3           4/0         58/57
Reviewed

Total Number of IMF and BMF
                                      14           19           75           3             4           115
Taxpayer Audit Files Reviewed



      Compliance With                                        Division
    Requirement to Notify          Appeals        LB&I        SB/SE       TE/GE          W&I         Totals
     Representatives of
      Taxpayer Rights              IMF/BMF      IMF/BMF     IMF/BMF      IMF/BMF       IMF/BMF      IMF/BMF
Number of Taxpayer Audit Files
That Did Not Contain
Documentation That Taxpayers’
                                      0/0          0/1          2/0         0/0           0/0          2/1
Representatives Were Provided
With Copies of the Notification
of the Taxpayers’ Rights
Number of Taxpayer Audit Files
Reviewed                              5/8         0/17         40/24        0/2           4/0         49/51

Total Number of IMF and BMF
                                      13           17           64           2             4           100
Taxpayer Audit Files Reviewed



1
 Office of Appeals, Large Business and International (LB&I) Division, Small Business/Self-Employed (SB/SE)
Division, Tax Exempt and Government Entities (TE/GE) Division, and Wage and Investment (W&I) Division.
                                                                                                     Page 22
